No. ________________

IN THE SUPREME COURT OF THE UNITED STATES
DEVONTE JAISHUN TUCKER,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Eleventh Circuit

APPENDIX
KEVIN L. BUTLER
Federal Public Defender
Northern District of Alabama
ALLISON CASE
Assistant Federal Defender
ALEXANDRIA DARBY
Appellate Attorney
Counsel of Record
200 Clinton Avenue West
Suite 503
Huntsville, Alabama 35801
256-684-8700
Alex_Darby@fd.org
Counsel for Petitioner

Appendix A

Case 7:19-cr-00031-LSC-JEO Document 15 Filed 07/30/19 Page 1 of 5

FILED
2019 Jul-30 PM 04:42
U.S. DISTRICT COURT
N.D. OF ALABAMA

AO 245 S (Rev. 1/98)(N.D.Ala. rev.) Sheet 1 - Judgment in a Criminal Case

UNITED STATES DISTRICT COURT
Northern District of Alabama
UNITED STATES OF AMERICA
v.

Case Number 7:19-CR-31-LSC-JEO-1

DEVONTE JAISHUN TUCKER
Defendant.

JUDGMENT IN A CRIMINAL CASE
(For Offenses Committed On or After November 1, 1987)
The defendant, DEVONTE JAISHUN TUCKER, was represented by Kevin Roberts.
The defendant pleaded guilty to count 1. Accordingly, the defendant is adjudged guilty of the following
count, involving the indicated offense:
Title & Section

Nature of Offense

18 U.S.C. § 922(g)(1)

Felon in Possession of a Firearm

Count Number

1

As pronounced on July 29, 2019, the defendant is sentenced as provided in pages 2 through 5 of this
Judgment. The sentence is imposed pursuant to the Sentencing Reform Act of 1984.
It is ordered that the defendant shall pay to the United States a special assessment of $100.00, for count
1, which shall be due immediately.
It is further ordered that the defendant shall notify the United States Attorney for this district within 30 days
of any change of name, residence, or mailing address until all fines, restitution, costs, and special assessments
imposed by this Judgment are fully paid.
Done this 30th day of July, 2019.

L. Scott Coogler
United States District Judge
173538

Case 7:19-cr-00031-LSC-JEO Document 15 Filed 07/30/19 Page 2 of 5
AO 245 S (Rev. 1/98)(N.D.Ala. rev.) Sheet 2 - Imprisonment

Judgment--Page 2 of 5
Defendant: DEVONTE JAISHUN TUCKER
Case Number: 7:19-CR-31-LSC-JEO-1
IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned
for a term of ONE HUNDRED TWENTY (120) months. This sentence shall run concurrently with the yet-to-be
imposed sentence in Tuscaloosa County Circuit Court case number CC2019-315.
The Court makes the following recommendations to the Bureau of Prisons: The Court further recommends
that the defendant be housed in a facility close to Tuscaloosa, AL.
.
The defendant is remanded to the custody of the United States Marshal.

RETURN
I have executed this Judgment as follows:

Defendant delivered on
to
, with a certified copy of this Judgment.

at

United States Marshal
By
Deputy Marshal

Case 7:19-cr-00031-LSC-JEO Document 15 Filed 07/30/19 Page 3 of 5
AO 245 S (Rev. 1/98)(N.D.Ala. rev.) Sheet 3 - Supervised Release

Judgment--Page 3 of 5
Defendant: DEVONTE JAISHUN TUCKER
Case Number: 7:19-CR-31-LSC-JEO-1
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of 36 months.
The Probation Office shall provide the defendant with a copy of the standard conditions and any special conditions
of supervised release.
STANDARD CONDITIONS OF SUPERVISED RELEASE
While the defendant is on supervised release pursuant to this Judgment:
1)
You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of the time you
were sentenced (if placed on probation) or released from custody (if supervised release is ordered), unless the probation officer instructs
you to report to a different probation office or within a different time frame.
2)
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and when
to report to the probation officer, and you must report to the probation officer as instructed.
3)
You must not commit another federal, state, or local crime.
4)
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified, for the specific purpose of causing bodily injury or death to another person, such as nunchakus or tasers).
Revocation of supervision is mandatory for possession of a firearm.
5)
You must not unlawfully possess a controlled substance.
6)
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court. You must contribute to the cost of drug testing
unless the probation officer determines you do not have the ability to do so. Based upon a court order entered during the period of
supervision for good cause shown or resulting from a positive drug test or evidence of excessive use of alcohol, you shall be placed
in the Substance Abuse Intervention Program (SAIP) (or comparable program in another district).
7)
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the
court or the probation officer.
8)
You must follow the instructions of the probation officer related to the conditions of supervision.
9)
You must answer truthfully the questions asked by the probation officer.
10) You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer at least 10 days in advance is not possible due to unanticipated circumstances, you must notify the probation officer
within 72 hours of becoming aware of a change or expected change. (If you have been convicted of a crime of violence or a drug
trafficking offense, the probation office is responsible for complying with the notice provisions of 18 U.S.C. § 4042(b) and (c) if you
change your residence.)
11) You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to
take any items prohibited by the conditions of your supervision that he or she observes in plain view.
12) You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from doing
so. If you do not have full-time employment, you must try to find full-time employment, unless the probation officer excuses you from
doing so. If you plan to change where you work or anything about your work (such as the position or the job responsibilities), you must
notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10 days in advance is not possible
due to unanticipated circumstances, you must notify the probation officer within 72 hours of becoming aware of a change or expected
change.
13) You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been convicted
of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the probation officer.
14) If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
15) You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
16) If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may require
you to notify the person about the risk, and you must comply with that instruction. The probation officer may contact the person and
confirm that you have notified the person about the risk.
17) You must fully and truthfully disclose financial information as requested by the probation officer related to the conditions of supervision.
Financial information may include, but is not limited to, authorization for release of credit information, bank records, income tax returns,
documentation of income and expenses, and other financial information regarding personal or business assets, debts, obligations, and/or
agreements in which the defendant has a business involvement or financial interest.
18) You must support all dependents.

Case 7:19-cr-00031-LSC-JEO Document 15 Filed 07/30/19 Page 4 of 5
AO 245 S (Rev. 1/98)(N.D.Ala. rev.) Sheet 3 - Continuation of Standard Conditions of Supervised Release

Judgment--Page 4 of 5
Defendant: DEVONTE JAISHUN TUCKER
Case Number: 7:19-CR-31-LSC-JEO-1
CONTINUATION OF STANDARD CONDITIONS OF SUPERVISED RELEASE
19)

You must comply with the probation office's Policies and Procedures Concerning Court-Ordered Financial Obligations to satisfy the
balance of any monetary obligation resulting from the sentence imposed in the case. Further, you must notify the probation officer of
any change in your economic circumstances that might affect your ability to pay a fine, restitution, or assessment fee. If you become
more than 60 days delinquent in payments of financial obligations, you may be: (a) required to attend a financial education or
employment preparation program under the administrative supervision of the probation officer; (b) placed on home detention subject
to location monitoring for a maximum period of 90 days under the administrative supervision of the probation officer (and you must pay
the cost of monitoring unless the probation officer determines you do not have the ability to do so); and/or (c) placed in a community
corrections center for up to 180 days under the administrative supervision of the probation officer (and you must pay the cost of
subsistence unless the probation officer determines you do not have the ability to do so).

Case 7:19-cr-00031-LSC-JEO Document 15 Filed 07/30/19 Page 5 of 5
AO 245 S (Rev. 1/98)(N.D.Ala. rev.) Sheet 3 (cont'd) - Supervised Release

Judgment--Page 5 of 5
Defendant: DEVONTE JAISHUN TUCKER
Case Number: 7:19-CR-31-LSC-JEO-1
SPECIAL CONDITIONS OF SUPERVISION
While the defendant is on supervised release pursuant to this Judgment:
1)
2)
3)

4)
5)

6)
7)

8)

You must cooperate in the collection of DNA under the administrative supervision of the probation officer.
You must not use or possess alcohol.
You must not use or possess any narcotic or controlled substance except as prescribed to you by a licensed medical practitioner, and
you must follow the instructions on the prescription. You must not knowingly purchase, possess, distribute, administer, or otherwise use
any psychoactive substances (e.g., synthetic marijuana, bath salts, etc.) that impair a person's physical or mental functioning, whether
or not intended for human consumption, except as with the prior approval of the probation officer.
You must not go to, or remain at, any place where you know controlled substances are illegally sold, used, distributed, or administered
without first obtaining the permission of the probation officer.
You must participate in the Substance Abuse Intervention Program (SAIP) (or comparable program in the district of supervision) under
the administrative supervision of the probation officer, and you must comply with the requirements and rules of the program. This
program includes the following components: (a) testing by the probation officer or an approved vendor to detect prohibited drug or
alcohol use; (b) substance abuse education; (c) outpatient substance abuse treatment, which may include individual or group
counseling, provided by the probation office or an approved vendor, and/or residential treatment; (d) placement in a community
corrections center (halfway house) for up to 270 days; and/or (e) home confinement subject to electronic monitoring for up to 180 days.
You must contribute to the costs of participation unless the probation officer determines you do not have the ability to do so.
You must participate in a mental health treatment program under the administrative supervision of the probation officer, and you must
comply with the requirements and rules of the program. You must contribute to the cost of treatment unless the probation officer
determines you do not have the ability to do so.
You must participate in a cognitive behavioral treatment program designed to promote responsible thinking and to increase problem
solving and social skills under the administrative supervision of the probation officer, and you must comply with the requirements and
rules of the program. You must contribute to the cost of treatment unless the probation officer determines you do not have the ability
to do so.
You must participate in an educational services program under the administrative supervision of the probation officer, and follow the
requirements and rules of the program. Such programs may include high school equivalency preparations, English as a Second
Language classes, and other classes designed to improve your proficiency in skills such as reading, writing, mathematics, or computer
use. You must contribute to the cost unless the probation officer determines you do not have the ability to do so.

Appendix B

USCA11 Case: 19-13084

Date Filed: 12/22/2020

Page: 1 of 19

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-13084
________________________
D.C. Docket No. 7:19-cr-00031-LSC-JEO-1

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
DEVONTE JAISHUN TUCKER,
Defendant-Appellant.
__________________________
Appeal from the United States District Court
for the Northern District of Alabama
_________________________
(December 22, 2020)
Before ROSENBAUM, LAGOA and ANDERSON, Circuit Judges.
PER CURIAM:
After pleading guilty, Devonte Jaishun Tucker appeals his sentence of 120
months’ imprisonment for being a felon in possession of a firearm. On appeal,

USCA11 Case: 19-13084

Date Filed: 12/22/2020

Page: 2 of 19

Tucker challenges the procedural and substantive reasonableness of his sentence.
Upon careful review, we affirm.
I. BACKGROUND
A.

Offense Conduct 1 and Guilty Plea

Around midnight on November 15, 2018, law enforcement officers observed
a Chevrolet sedan matching the description of a car reported stolen. The officers
confirmed that the Chevrolet was stolen and attempted to stop the car. At first, the
Chevrolet driver did not stop, but he eventually did stop in the cul-de-sac of an
apartment complex. The driver (who was never identified) exited the car, while
Tucker stayed in the passenger seat.
Officer Joshua Smith exited his patrol car, drew his firearm, and pointed it at
the Chevrolet. Then, passenger Tucker moved into the driver’s seat of the
Chevrolet, turned the wheels of the car toward Officer Smith, and accelerated
toward Officer Smith. Because it looked like Tucker was going to hit Officer
Smith and was ignoring commands to stop, Officer Smith fired rounds at the car.
After Officer Smith began firing, Tucker swerved the car away from Officer Smith
and drove away at a high speed.
Officers Smith and Jacob Morris chased after the Chevrolet with their sirens

1

The record of the offense conduct is based on a combination of the unobjected-to facts in
the presentence investigation report and the evidence adduced at the sentencing hearing.
2

USCA11 Case: 19-13084

Date Filed: 12/22/2020

Page: 3 of 19

and lights activated. Tucker continued to drive down busy streets, reaching speeds
of 100 miles per hour, running a stop sign and a red light, jumping a curb, and
almost hitting another car. After a five-minute car chase, Tucker jumped out of the
still-moving Chevrolet and fled on foot wearing a black backpack. Officers Morris
and Smith on foot chased Tucker and, less than one minute later, found him hiding
behind a home with his backpack either still on his person or next to him. The
officers apprehended Tucker, searched the black backpack, and found a pistol
inside. In a post-arrest interview, Tucker—a convicted felon—admitted to
possessing the backpack containing the firearm and stated the initial driver of the
Chevrolet gave it to him.
In January 2019, a federal grand jury indicted Tucker with one count of
being a felon in possession of a firearm, in violation of 18 U.S.C. § 922(g)(1).
Tucker pled guilty to the charge, without the benefit of a plea agreement.
B.

Presentence Investigation Report (“PSI”)

The PSI assigned Tucker a base offense level of 14 because he was a
convicted felon at the time of the November 2018 offense. Tucker’s base offense
level of 14 was: (1) increased by two levels because the pistol in his backpack was
reported stolen; (2) increased by two levels because he obstructed justice and
recklessly endangered others when he fled from the officers both by car, reaching
100 miles per hour and almost striking an officer, and by foot while carrying a
3

USCA11 Case: 19-13084

Date Filed: 12/22/2020

Page: 4 of 19

firearm; and (3) reduced by three levels because he accepted responsibility.
Accordingly, Tucker’s resulting total offense level was 15.
Tucker, who was 23 at the time of the November 2018 offense, had a
lengthy criminal history beginning at age 13. Tucker’s juvenile adjudications,
which received zero criminal history points, included: (1) second-degree robbery at
age 13; (2) first-degree receiving stolen property at age 13; (3) domestic violence
at age 14; (4) two first-degree theft of property adjudications at age 14; (5) two
breaking and entering into a vehicle adjudications at age 14; (6) breaking and
entering into a vehicle at age 15; and (7) first-degree robbery at age 15. Tucker’s
adult convictions, which resulted in four criminal history points, included: (1) a
youthful offender conviction at age 17; (2) third-degree burglary at age 19;
(3) aggravated assault at age 21; (4) having no driver’s license, failing to maintain
insurance, and having a foreign warrant at age 21; (5) second-degree possession of
marijuana at age 22; and (6) resisting arrest at age 22. 2
Tucker’s total offense level of 15 and criminal history category of III yielded
an advisory guidelines range of 24 to 30 months’ imprisonment. The PSI noted
that the statutory maximum term of imprisonment for the firearm offense was 120
months. See 18 U.S.C. § 924(a)(2).

2

Tucker also had other pending charges, including: (1) third-degree theft of property at
age 20; (2) first-degree receiving stolen property at age 23; and (3) leaving the scene of an
accident at age 23.
4

USCA11 Case: 19-13084

Date Filed: 12/22/2020

Page: 5 of 19

Tucker’s PSI recounted his family background, mental and emotional health,
and substance abuse. Tucker was raised by his mother and had a physically
abusive step-father. His father was serving prison sentences for murder
convictions. As a child, Tucker was diagnosed with bi-polar mania, depression,
personality disorder, and defiant disorder. Tucker was treated for his disorders at
various facilities and hospitals and took prescription medication. Before getting on
the right medication, Tucker occasionally heard voices instructing him to harm
himself or others. Because of his depression, Tucker unsuccessfully attempted
suicide three times between 2007 and 2013. Tucker, however, reported no current
voices in his head or suicidal ideations, owing to medication he began taking in
2019.
Tucker also suffered from relatively severe substance abuse. At age 12, he
began using marijuana and alcohol. Eventually, he smoked four or five “blunts”
and drank a bottle of liquor per day. While he had not used alcohol since age 22,
his last use of marijuana was on the day of the instant November 2018 offense.
Tucker also used cocaine daily, ecstasy weekly, and methamphetamine weekly, up
until the time of the instant offense.
Tucker objected to the PSI’s factual assertion that he accelerated towards
Officer Smith as he escaped in the Chevrolet. Tucker’s counsel filed a sentencing
memorandum submitting that a 24-month sentence, at the low end of the advisory
5

USCA11 Case: 19-13084

Date Filed: 12/22/2020

Page: 6 of 19

guidelines range, was reasonable because it would: (1) sufficiently deter him from
crime; (2) reward him for his acceptance of responsibility; and (3) account for his
mental illness, substance abuse issues, and lack of male role models, all of which
helped explain his bad choices during the November 2018 incident.
Tucker’s counsel also filed a report by a mitigation specialist who reviewed
Tucker’s family background, mental health history, and substance use history. The
report recommended the district court consider these mitigating factors: (1) Tucker
was raised without a father because his father was incarcerated for most of his
childhood; (2) Tucker was exposed to domestic violence since age 6; (3) he never
had a positive male role model and all the influential men in his life exhibited
patterns of violence; (4) Tucker was conditioned to believe that violence was a
normal way of life; (5) he had a “serious and persistent mental illness” that was not
consistently treated; (6) Tucker’s untreated mental illness led to his delinquency,
which was sanctioned by the juvenile correction system without addressing the
underlying causes of the delinquency; (7) Tucker, who had not regularly taken his
psychiatric medications since he lost health insurance at age 19, was not on his
medications at the time of the November 2018 offense; (8) he self-medicated with
alcohol, cocaine, and marijuana, which exacerbated his psychotic symptoms; and
(9) Tucker carried a firearm in self-defense, as he had been shot several times in
the last three years and his cousin was murdered.
6

USCA11 Case: 19-13084

C.

Date Filed: 12/22/2020

Page: 7 of 19

Sentencing Hearing

At sentencing, the district court adopted the PSI’s factual findings,
guidelines calculations, and advisory guidelines range of 24 to 30 months. In
response to Tucker’s factual PSI objection, the government called Officers Smith
and Morris, and Officer Smith testified that, as Tucker was fleeing from the cul-desac in the Chevrolet, he accelerated towards Officer Smith in an apparent attempt
to hit him.
The district court asked Tucker whether he had any arguments “in mitigation
or otherwise.” Tucker’s counsel again requested a sentence at the low end of the
advisory guidelines range and mentioned his sentencing memorandum, without
discussing its contents. Counsel argued that the low end was sufficient because
Tucker’s criminal history was not extensive, his conduct during the car chase was
already taken into account by the obstruction and reckless-endangerment
enhancement, and he did not attempt to run over Officer Smith or kill him. Tucker
allocuted and apologized for his actions.
The district court asked the government for its recommendation. The
government requested an upward variance to a 40-month sentence because the
obstruction and reckless-endangerment enhancement grossly understated Tucker’s
actions, which encompassed driving the Chevrolet at Officer Smith, endangering
other cars on the road during the high-speed chase, and running stop signs and red
7

USCA11 Case: 19-13084

Date Filed: 12/22/2020

Page: 8 of 19

lights.
The district court stated that it was required to impose a sentence that was
sufficient but not greater than necessary to accomplish the sentencing goals set out
in 18 U.S.C. § 3553(a) and that it needed to discuss many of those goals. 3 The
district court rejected Tucker’s argument that his criminal history was not
extensive and went through his numerous juvenile adjudications (starting at age
13) and his adult convictions. Next, the district court considered Tucker’s offense
conduct and found that he engaged in an extremely violent “crime spree” that
endangered others, noting that it was a wonder that no one else got hurt.
Specifically, the district court found that Tucker: (1) attempted to hit Officer Smith
with the Chevrolet so that he could get away, thereby assaulting him with a deadly
weapon; 4 (2) led the officers on a high-speed chase on busy streets while running
stop signs and red lights; and (3) left the Chevrolet running and rolling forward
when he continued fleeing on foot.
The district court found that Tucker’s criminal history and instant offense
conduct demonstrated that: (1) Tucker thought he could “get away with anything,”
“continue his criminal conduct,” and “do whatever he pleases in total disrespect for
3

Without explicitly referencing § 3553(a), the district court stated that it was considering
“the sentencing goals set forth in the federal sentencing statutes.” We surmise, and Tucker does
not dispute, that the district court was referring to the § 3553(a) factors.
4

On appeal, Tucker does not challenge the district court’s finding that he attempted to hit
Officer Smith with the Chevrolet.
8

USCA11 Case: 19-13084

Date Filed: 12/22/2020

Page: 9 of 19

all laws[,] . . . for society[,] and for the protection of anyone else”; and (2) thus,
society needed to be protected from Tucker. The district court also found that:
(a) Tucker’s criminal history and instant offense conduct were “grossly
underestimated” and “under considered” by the guidelines calculations; (b) a
guidelines-range sentence was thus inappropriate; and (c) the only appropriate
sentence was the maximum sentence available. Ultimately, the district court
sentenced Tucker to the statutory maximum sentence of 120 months’
imprisonment, followed by three years’ supervised release.
Tucker objected to “the court going above the advisory guidelines [range].”
In response, the district court reiterated that it was a wonder that Tucker did not
kill anyone or himself during the crime spree, highlighted that he could have faced
several more charges for his offense conduct, hoped that Tucker would learn his
lesson before leaving prison, and indicated that Tucker would face an even longer
prison sentence if he got in trouble again.
This is Tucker’s appeal.
II. DISCUSSION
Tucker argues that his 120-month sentence is both procedurally and
substantively unreasonable. We review a sentence’s reasonableness under a
deferential abuse-of-discretion standard. United States v. Pugh, 515 F.3d 1179,
1190 (11th Cir. 2008). In applying this standard, we use a two-step process. Id.
9

USCA11 Case: 19-13084

Date Filed: 12/22/2020

Page: 10 of 19

First, we assess whether the district court committed any significant procedural
error, such as failing to adequately explain its sentence or failing to consider the 18
U.S.C. § 3553(a) factors.5 Id. Second, we determine whether the sentence is
substantively unreasonable in light of the § 3553(a) factors and the totality of the
circumstances. Id. Tucker, as the party challenging his sentence, bears the burden
of demonstrating that his sentence is unreasonable. Id. at 1189.
A.

Procedural Reasonableness

Tucker argues that, in imposing his 120-month sentence, the district court
procedurally erred by focusing solely on Tucker’s criminal history and offense
conduct without addressing the mitigating arguments raised in his sentencing
memorandum regarding his mental health, substance abuse issues, and family
background. In other words, Tucker argues that the district court procedurally erred
by failing to explicitly discuss his non-frivolous mitigating evidence, in violation
of 18 U.S.C. § 3553(c)’s requirement that a sentencing judge must, at the time of
sentencing, state in open court the reasons for imposing the particular sentence.
When imposing a sentence outside of the advisory guidelines range, the
district court “must consider the extent of the deviation and ensure that the
5

The § 3553(a) factors of relevance include: (1) the nature and circumstances of the
offense and the history and characteristics of the defendant; (2) the need to reflect the seriousness
of the offense, to promote respect for the law, and to provide just punishment for the offense;
(3) the need for deterrence; (4) the need to protect the public from the defendant’s future crimes;
(5) the need to provide the defendant with needed and effective medical care and correctional
treatment; and (6) the advisory guidelines range. 18 U.S.C. § 3553(a)(1)-(2), (4).
10

USCA11 Case: 19-13084

Date Filed: 12/22/2020

Page: 11 of 19

justification is sufficiently compelling to support the degree of the variance.”
United States v. Tome, 611 F.3d 1371, 1378 (11th Cir. 2010) (quotation marks
omitted). “[A] major departure should be supported by a more significant
justification than a minor one.” Gall v. United States, 552 U.S. 38, 50, 128 S. Ct.
586, 597 (2007).
That being said, the district court is not required to incant specific language
or articulate its consideration of each § 3553(a) factor, as long as the record as a
whole demonstrates the district court’s consideration of the § 3553(a) factors.
United States v. Bonilla, 463 F.3d 1176, 1182 (11th Cir. 2006). The central
inquiry is whether the district court, in pronouncing its chosen sentence, set forth
enough to satisfy us that it considered the parties’ arguments and had a reasoned
basis for exercising its own legal decisionmaking authority. United States v.
Carpenter, 803 F.3d 1224, 1232 (11th Cir. 2015); see Gall, 552 U.S. at 50, 128 S.
Ct. at 597 (providing that the district court’s explanation must “allow for
meaningful appellate review” and “promote the perception of fair sentencing”). As
the Court held in Rita v. United States, 551 U.S. 338, 356, 127 S. Ct. 2456, 2468
(2007), “[t]he sentencing judge should set forth enough to satisfy the appellate
court that he has considered the parties’ arguments and has a reasoned basis for
exercising his own legal decisionmaking authority.”
The government argues that Tucker did not adequately object to this asserted
11

USCA11 Case: 19-13084

Date Filed: 12/22/2020

Page: 12 of 19

procedural error in the district court, and therefore that we should review only for
plain error. We agree. In the district court, after the district court explained at
length its reasons for imposing the statutory maximum sentence, Tucker’s only
objection was to “the court going above the advisory guidelines.” Sent. Hr’g at 39.
Tucker made no objection based on the district court’s failure to discuss or
consider Tucker’s mitigating evidence which had been set out in his sentencing
memorandum and the attached mitigation report.
Accordingly, we review Tucker’s argument on appeal – that the district
court procedurally erred by failing to explicitly discuss his non-frivolous
mitigating evidence, from which Tucker urges us to infer that the district court
failed to consider his mitigating arguments – only for plain error. “When a party
does not object to an issue at sentencing, we review only for plain error.” United
States v. Cingari, 952 F.3d 1301, 1305 (11th Cir. 2020); United States v. Parks,
823 F.3d 990, 994-95 (11th Cir. 2016) (concluding that a defendant’s “sweeping,
general objection” to the length of his sentence was insufficient to apprise the
district court of his objection targeting § 3553(a) (quotation marks omitted)). For
us to find plain error, Tucker must show that “(1) there is an error; (2) that is plain
or obvious; (3) affecting his substantial rights in that it was prejudicial and not
harmless; and (4) that seriously affects the fairness, integrity, or public reputation
of the judicial proceedings.” Cingari, 952 F.3d at 1305 (quotation marks omitted).
12

USCA11 Case: 19-13084

Date Filed: 12/22/2020

Page: 13 of 19

We conclude that Tucker has failed to demonstrate plain error. At the least,
Tucker has failed to show that the alleged error was plain or obvious, or that it
affected his substantial rights.
It is true that the case law does clearly establish that a sentencing judge must
consider a defendant’s non-frivolous arguments for a lower sentence. See Rita,
551 U.S. at 356, 127 S. Ct. at 2468 (“The sentencing judge should set forth enough
to satisfy the appellate court that he has considered the parties’ arguments.”).
However, it is not at all plain or obvious that the sentencing judge is required to
explicitly mention or discuss every non-frivolous argument. See United States v.
Amedeo, 487 F.3d 823, 833 (11th Cir. 2007) (“[A]lthough the district court’s
sentencing order made no mention of evidence that arguably mitigated in
Amedeo’s favor under § 3553(a), we cannot say that the court’s failure to discuss
this ‘mitigating’ evidence means that the court erroneously ‘ignored’ or failed to
consider this evidence in determining Amedeo’s sentence.”).
We also conclude that Tucker has failed to demonstrate that the district
court’s failure to mention or discuss his mitigating evidence adversely affected his
substantial rights. To establish plain error, Tucker must carry his burden of
demonstrating that his substantial rights were adversely affected. Cingari, 952
F.3d at 1305. This prong requires showing a reasonable probability of a different
result absent the error. United States v. Rodriguez, 398 F.3d 1291, 1299 (11th Cir.
13

USCA11 Case: 19-13084

Date Filed: 12/22/2020

Page: 14 of 19

2005). For at least two reasons, Tucker has failed to make this showing. First, the
district court provided a lengthy explanation of why it imposed the maximum
statutory sentence. The district court explained that the advisory guidelines range
did not encompass an appropriate sentence and addressed numerous § 3553(a)
factors in explaining why an above-guidelines-range sentence was required. These
factors included: (1) the serious, dangerous, and violent nature and circumstances
of the November 2018 offense, during which Tucker assaulted an officer with the
Chevrolet, led officers on a high-speed chase up to 100 miles per hour, drove
erratically, endangered citizens, left the Chevrolet rolling forward after he jumped
out, and fled on foot with a firearm; (2) Tucker’s lengthy juvenile and adult
criminal history; (3) the needs to promote respect for the law and to deter Tucker
from future offenses since Tucker’s actions demonstrated that he did “whatever he
pleases in total disrespect for all laws[,] . . . for society[,] and for the protection of
anyone else”; (4) the need to protect the public from Tucker and his crimes; and
(5) the advisory guidelines range and the need to provide just punishment for the
offense since a guidelines-range-sentence would not have accounted for the
seriousness of the conduct or Tucker’s criminal history. See 18 U.S.C.
§ 3553(a)(1)-(2), (4).
The district court’s express finding that “society need[ed] to be protected
from this individual defendant” strongly suggests that the district court believed
14

USCA11 Case: 19-13084

Date Filed: 12/22/2020

Page: 15 of 19

that its sentence was necessary even though Tucker’s family problems, mental
illness, and substance abuse may have contributed to his criminal behavior. This
suggestion is bolstered by the district court’s finding that the “only sentence that
[wa]s appropriate [wa]s the maximum that [it] could give him, which [wa]s the
statutory maximum sentence.” Sent. Hr’g at 37. Whatever the strength of this
suggestion, Tucker has failed to show a reasonable probability that, instead, the
district judge simply failed to consider his mitigating evidence and would have
imposed a lighter sentence if he had.
Second, Tucker has also failed to show that the district court did not in fact
consider his mitigating evidence. It is true that the district court did not expressly
state that it had considered that evidence. However, there is absolutely nothing in
the record to suggest that the judge did not consider it. Moreover, there is strong
evidence that he did. The district court solicited such evidence, expressly asking
Tucker’s counsel whether he had any arguments “in mitigation or otherwise,” id. at
29, to which counsel responded referring the court to his sentencing memorandum,
although not discussing its content at the time. More significant, the district court
expressly adopted the PSI findings, which described the gist of Tucker’s mitigating
evidence. Indeed, the PSI included the overwhelming majority of the details
thereof as set forth in Tucker’s sentencing memorandum and the attached
mitigation report. Moreover, the supervised release provisions which the district
15

USCA11 Case: 19-13084

Date Filed: 12/22/2020

Page: 16 of 19

court imposed expressly take Tucker’s mental health problems into consideration,
indicating that the district court was cognizant thereof. Thus, there is evidence that
the district court did in fact consider Tucker’s mitigating evidence. The crucial
point, however, is that Tucker has not carried his burden of showing that his
substantial rights were adversely affected.
In sum, we conclude that there is evidence that the district court did in fact
consider Tucker’s non-frivolous mitigation argument and evidence. For the
foregoing reasons, it is clear that Tucker has failed to establish plain error.
Accordingly, we reject Tucker’s argument that Tucker’s sentence was procedurally
unreasonable.
B.

Substantive Reasonableness

Tucker also has not shown that his sentence is substantively unreasonable.
A district court abuses its discretion on substantive reasonableness grounds when it
(1) fails to consider relevant factors that were due significant weight, (2) accords
substantial weight to an improper or irrelevant factor, or (3) clearly errs in its
judgment in considering the proper factors. Carpenter, 803 F.3d at 1234.
However, in reviewing the district court’s sentence, we will not substitute our
judgment and reweigh the relevant factors. Id. A district court is entitled to weigh
certain § 3553(a) factors more heavily than others, and the weight it attaches to any
particular factor is committed to its sound discretion. United States v. Rosales16

USCA11 Case: 19-13084

Date Filed: 12/22/2020

Page: 17 of 19

Bruno, 789 F.3d 1249, 1254 (11th Cir. 2015).
This Court will not vacate a defendant’s sentence as substantively
unreasonable unless “we are left with the definite and firm conviction that the
district court committed a clear error of judgment in weighing the § 3553(a) factors
by arriving at a sentence that lies outside the range of reasonable sentences dictated
by the facts of the case.” United States v. Irey, 612 F.3d 1160, 1190 (11th Cir.
2010) (en banc) (quotation marks omitted). We may not presume that a sentence
outside of the advisory guidelines range is unreasonable, and “we must give due
deference to the district court’s decision that the § 3553(a) factors, on a whole,
justify the extent of the variance.” Tome, 611 F.3d at 1378 (quotation marks
omitted).
Here, while the district court varied upward from Tucker’s 24-to-30-month
advisory guidelines range and sentenced him to the statutory maximum of 120
months’ imprisonment, we cannot say the upward variance was an abuse of
discretion. As noted above, while Tucker was convicted only of being a felon in
possession of a firearm, his offense conduct involved, as the district court put it, a
dangerous and violent “crime spree.” Within a short time frame, Tucker assaulted
a police officer with a car, led officers on a high-speed chase up to 100 miles per
hour on busy streets, drove erratically, ran red lights and stop signs, endangered
citizens on the road and the officers involved in the chase, left the car rolling
17

USCA11 Case: 19-13084

Date Filed: 12/22/2020

Page: 18 of 19

forward as he jumped out, and ran on foot through a neighborhood while carrying a
firearm. Tucker’s lack of respect for the law and public safety is further
demonstrated by his lengthy criminal history. While not resulting in many points,
Tucker’s criminal history included at least nine juvenile adjudications and six adult
convictions.
Tucker contends that the district court weighed these factors too heavily,
while ignoring his mental health, substance abuse issues, and family upbringing,
each of which explained his behavior. We cannot say, however, that the district
court abused its substantial discretion in weighing more heavily the several
§ 3553(a) factors set out above, especially the serious, dangerous, and violent
nature and circumstances of the November 2018 offense and Tucker’s lengthy
juvenile and adult criminal history. See 18 U.S.C. § 3553(a)(1)-(2), (4); RosalesBruno, 789 F.3d at 1254, 1263 (explaining, for example, that a sentencing court
may place substantial weight on the defendant’s criminal record, as five of the
§ 3553(a) factors are related to criminal history). Furthermore, the district court
necessarily rejected, or at least discounted, Tucker’s argument that his behavior
was explained by his mental health, substance abuse issues, and family upbringing
by finding that Tucker’s behavior instead demonstrated that he thought he could
“get away with anything,” “continue his criminal conduct,” and “do whatever he
pleases in total disrespect for all laws[,] . . . for society[,] and for the protection of
18

USCA11 Case: 19-13084

Date Filed: 12/22/2020

Page: 19 of 19

anyone else.” Sent. Hr’g at 34. The district court expressly found that “society
need[ed] to be protected” from Tucker. Id. at 37.
Accordingly, Tucker has not shown that “the district court committed a clear
error of judgment in weighing the § 3553(a) factors by arriving at a sentence that
lies outside the range of reasonable sentences dictated by the facts of [this] case.”
See Irey, 612 F.3d at 1190 (quotation marks omitted).
III. CONCLUSION
Tucker has failed to show any substantive unreasonableness in his
sentencing and has failed to demonstrate plain error with respect to procedural
unreasonableness. Accordingly, we affirm his 120-month prison sentence.
AFFIRMED.

19

Appendix C

USCA11 Case: 19-13084

Date Filed: 01/28/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
______________
No. 19-13084-AA
______________
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
DEVONTE JAISHUN TUCKER,
Defendant - Appellant.
__________________________________________
Appeal from the United States District Court
for the Northern District of Alabama
__________________________________________
BEFORE: ROSENBAUM, LAGOA and ANDERSON, Circuit Judges.
PER CURIAM:
The Petition for Panel Rehearing filed by Appellant Devonte Jaishun Tucker is DENIED.

ORD-41

